<html>
<title> - NOMINATION</title>
<body><pre>[Senate Hearing 111-932]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-932
 
                               NOMINATION 

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED ELEVENTH CONGRESS



                             FIRST SESSION



                               __________

                   INSERT DATE HERE deg.JUNE 9, 2009

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-251 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                COMMITTEE ON FOREIGN RELATIONS          

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York


                 David McKean, Staff Director         
        Kenneth A. Myers, Jr., Republican Staff Director        

                             (ii)          

  




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Feinstein, Hon. Dianne, U.S. Senator from California.............     6


Hoyer, Hon. Steny, U.S. Representative from Maryland.............     7
    Prepared statement...........................................     9


Isakson, Hon. Johnny, U.S. Senator From Georgia..................     5


Kerry, Hon. John F., U.S. Senator from Massachusetts.............     1


Lugar, Hon. Richard G., U.S. Senator from Indiana................     3


Tauscher, Hon. Ellen O., U.S. Congresswoman from California and 
  Nominee to be Under Secretary for Arms Control and 
  International Security.........................................     9
    Prepared statement...........................................    13


Prepared statement of Hon. Barbara Boxer, U.S. Senator from 
  California.....................................................    31


                                 (iii)

  


                               NOMINATION

                              ----------                              


                         TUESDAY, JUNE 9, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

Hon. Ellen O. Tauscher to be Under Secretary of State for Arms 
            Control and International Safety
                              ----------                              

    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Cardin, Kaufman, Lugar, and 
Isakson.

             OPENING STATEMENT OF HON. JOHN KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Good morning. This hearing will come to 
order.
    Good morning. It's a great pleasure to welcome everybody 
here today and particularly our nominee who is a good friend of 
mine and a lot of folks over here, and we have worked together. 
I'm proud to say I have alumni from my staff who are stalwartly 
helping to guide, though she doesn't need a lot of guidance, 
our nominee along the way and we're proud of that, too.
    And I see that you are accompanied by a strong cohort of 
the House here and it's nice to see some of those members along 
with you and our colleague, Senator Feinstein.
    Let me just say a few comments in opening and Senator Lugar 
will, and we don't normally do this, but I'm going to let 
Senator Isakson also say a few words, and then, Senator 
Feinstein, we'll welcome your comments, and Senator Boxer asked 
me to--she is chairing a hearing and could not--she came over 
here to pay her respects and I think has a statement for the 
record.
    But you have long been a leading congressional voice on 
national security issues and all of us respect that and now 
you've been chosen by the president to serve as Under Secretary 
of State for Arms Control and International Security.
    I appreciate that Senator Feinstein is here and I thought 
that Congressman Hoyer may come over or not at some point. 
Great. Well, we'll welcome him. Where is he hiding? Oh, here he 
is. Good timing. Mention your name and you appear, Steny. 
Welcome. Happy to have you here.
    Our nominee faces a significant number of challenges. We 
all know that. Terrorists are actively seeking to obtain 
sensitive materials and technology in an effort to launch 
catastrophic attacks with nuclear, chemical or biological 
weapons.
    Governments that can't feed their populations and can't 
find jobs for their young people can still produce weapons 
grade fissile material, test weapon designs and field long-
range missiles, threatening other countries with destruction on 
an unimaginable scale.
    Recognizing the urgency of the threat, Congress created the 
position of the Under Secretary of State for Arms Control and 
International Security in 1998 to ensure that the President and 
the State Department could always call upon a senior-level 
official squarely focused on assisting the Secretary and the 
Deputy Secretary in matters related to international security 
policy, arms control and nonproliferation.
    America must pursue the long-term goal of a world without 
nuclear weapons and I applaud the President for affirming our 
commitment to this effort in his April speech in Prague.
    This is not a dreamy vision built on naive optimism. We all 
understand the difficulties of getting there. We will need a 
very different world with a lot of different perceptions and a 
lot of different attitudes and checks and balances against 
behavior.
    But that said, it is clear that every step you take toward 
that world is a step that makes everybody safer and so it's 
worth pursuing it and that is why it is really a straight 
calculation based on national security interests of the United 
States which has now been endorsed by steely eyed Cold Warriors 
like Henry Kissinger and George Schultz.
    They recognize the fundamental truth that we face a fork in 
the road and if we don't dramatically transform our policies to 
aim in the direction of a world free of weapons, we will face a 
world in which many more diverse actors wield ever more 
dangerous weapons--and the chances of nuclear weapons being 
used will grow and also the chances of materials falling into 
rogue hands also increases significantly.
    The ultimate goal, needless to say, is not going to be 
reached quickly and possibly not in our lifetimes but in the 
meantime, we need to deal with the question of our security--
and so long as other actors possess nuclear weapons, we will, 
too.
    So this moment presents ample opportunities for significant 
progress and perhaps even a major breakthrough in the coming 
months and years. While the goal may be some distance away, 
there is increasing agreement that prudent, practical, near-
term steps in that direction are going to benefit all of us.
    We can and should work on a number of those steps 
immediately, and specifically steps that Congresswoman 
Tauscher, when confirmed, will be charged with overseeing. 
Dealing with North Korea and Iran's unacceptable defiance of 
their nonproliferation commitments, negotiating replacement for 
the expiring START Agreement on which I'm pleased to note we 
are reportedly already making progress, securing vulnerable 
nuclear material around the world within 4 years, working 
toward a global treaty to ban the production of fissile 
material for nuclear weapons now that the administration has 
broken the nearly decades-long impasse at the U.N. Conference 
on Disarmament, and, finally, consulting with the committee and 
the Senate as we reexamine the case for ratifying the CTBT.
    Of course, along with all these duties, she will also be 
charged with guiding our international security assistance, 
peaceful nuclear cooperation and military export control 
policies to ensure that they conform to the larger foreign 
policy objectives of the country.
    In these areas, too, there will be international agreements 
for which she will have to seek the support of either the 
Senate or the full Congress. With such a lengthy ``To Do'' 
list, we wonder if perhaps the nominee isn't thinking right now 
that chairing the Subcommittee on Strategic Forces in the House 
Armed Services Committee isn't such a bad job.
    Fortunately, we have a person before us who has 
demonstrated really admirable commitment to public service and 
bipartisanship and to America's security and ideals and given 
her seven terms in Congress, I'm confident that, if confirmed, 
the Under Secretary will seek a close working relationship with 
this committee, keeping the Senate fully informed and involved.
    Given the urgency of her work, I intend for the committee 
to move quickly on this nomination and I hope the full Senate 
will approve her in a timely manner.
    So let me turn now to the Senator who, when it comes to 
matters of proliferation and international security, continues 
to set the standard in this body for putting principle in front 
of partisanship, Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman, and 
I join you in welcoming our nominee today, Representative Ellen 
Tauscher, to be the next Under Secretary of State for Arms 
Control and International Security.
    If confirmed, the nominee will be responsible for 
addressing the No. 1 national security threat facing our 
country, namely the proliferation of weapons of mass 
destruction.
    In addition, the nominee will construct arms control 
strategies, render judgments on conventional weapon sales to 
foreign governments, implement export controls, and develop 
policies on missile defense and security assistance.
    Her work will be a critical element of the United States 
Government's response to the proliferation and nuclear security 
issues related to North Korea, Iran, Pakistan, and many other 
nations.
    Two weeks ago, I participated in the Opening Ceremonies of 
the Chemical Weapons Destruction Facility at Shchuch'ye Russia. 
Shchuch represents one of the most dangerous proliferation 
risks in history.
    When the project started, 1.9 million chemical munitions 
were stacked like wine bottles in a poorly guarded ramshackle 
wooden structure. During a visit to Shchuch in 1999, a Russian 
major took my photograph demonstrating how one of the munitions 
stored at Shchuch, an 85mm shell filled with nerve gas, could 
be carried in a simple briefcase. That one shell could have 
killed tens of thousands of people if detonated in an enclosed 
area, such as a stadium.
    Despite the intense threat posed by these weapons, it took 
15 years of painstaking effort to get to this point. All 
involved had to overcome a thicket of political, legal, 
bureaucratic, logistical and engineering issues, that 
threatened at multiple points to derail or delay the project.
    The contribution of several other countries, besides the 
United States and Russia, had to be integrated into the plans.
    Moreover, the Shchuch project would not have been possible 
without Russian and American ratification of the Chemical 
Weapons Convention in 1997. Thankfully, all of these elements 
occurred over the course of several administrations, so that we 
now have reached a point at Shchuch where the nerve gas is 
being neutralized shell by shell.
    I reflect on this experience to illustrate that 
nonproliferation and arms control achievements do not happen 
solely through Presidential declarations. They depend on 
negotiations with difficult countries and on glamorous 
implementation work often carried out in remote environments 
without much public appreciation or understanding.
    The policy directives of the President, Cabinet, and 
Secretaries and Under Secretaries are important but they do not 
guarantee success. Policymakers also must be diligent managers 
who ensure that negotiations, bureaucrats and technicians at 
every level of our government are working effectively to 
achieve results.
    I look forward to hearing from Representative Tauscher on 
the priority she plans to assign to the Nuclear Program and its 
partner efforts in the State and Energy Departments and how she 
will transition the United States policy to counter emerging 
threats.
    With respect to arms control negotiations, our most time-
sensitive agenda is the preservation of the START Treaty and on 
December 5, the verification regime that undergirds the START 
Treaty will expire.
    The Moscow Treaty, which reduces deployed warheads to 
1,700, would also be a casualty because it utilizes the START 
process. In other words, the foundation of the United States-
Russian strategic relationship is at risk of collapsing before 
the end of the year.
    I am following closely the efforts of our negotiating teams 
in Geneva, led by Assistant Secretary Rose Gottemoeller.
    Beyond START, action on several steps will improve the 
prospects for a successful NBT Review Conference scheduled for 
next spring in New York. These steps include jump-starting 
talks on a fissile material cutoff treaty, correcting and 
funding shortfalls related to the Chemicals Weapons Convention, 
applying U.S. leadership to refurbishing the IAE's decrepit 
verification capabilities and safeguard system, and making 
progress in establishing a nuclear fuel bank.
    Representative Tauscher has served for years in the House 
of Representatives where she played a role, a lead role in the 
formulation of legislation regarding the safety and security of 
the U.S. Nuclear Weapons Stockpile, of arms control and other 
issues directly related to this nomination.
    She has represented a congressional district that contains 
the Lawrence Livermore National Laboratory. So she comes to us 
today with an extensive nuclear background.
    On May 20, I sent 61 prehearing questions to Representative 
Tauscher. Pardon me. I appreciate her diligence in answering 
these questions. Her answers were posted on my Web site last 
week so that all members could have an opportunity to review 
them.
    I welcome her to the Foreign Relations Committee and look 
forward to our discussion of critical issues facing our 
country.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman, for letting 
me break with tradition and say a few words.
    But there are two reasons that deal with Georgia and one 
reason that is personal for which I wanted to say something 
about Ellen.
    First of all, her fiance is from Peachtree City, GA, and he 
is here today. I just had the privilege of meeting him. And her 
dad is here from Peachtree City as well as other family 
members. Peachtree City is a great town in our state and we are 
proud to have Ellen as a visitor--I guess you won't move as a 
resident. If she did, she would probably run against me and I 
would be out of here by now. [Laughter.]
    But we are glad to have all of you here. It is great to see 
Steny Hoyer here and Dianne, thank you for coming.
    But second, we share with the State of South Carolina the 
Savannah River site which is where right now, today, nuclear 
warheads are being reprocessed into fuel rods for powerplants. 
This is the ultimate taking of weapons and turning them into 
plow shares.
    I was just at the H Canyon Project 2 weeks ago, not inside 
of it, I was on the outside of it, to watch what is being done 
there, and it is great.
    But the personal reason is that I had the privilege of 
serving with Ellen for 6 years in the House and the pleasure of 
traveling with her to Munich, to the World Security Conference 
on one occasion, where I learned a tremendous amount from her.
    I think she is an absolutely tremendous appointee who I 
hope will speed through the Senate with all due haste. I 
particularly want to thank her in advance of her remarks for 
the inclusion in her remarks of the acknowledgement of Senator 
Sam Nunn, who, along with Senator Lugar, has done such 
tremendous work on nuclear nonproliferation.
    Sam is a predecessor of mine in the Senate from the State 
of Georgia and a great American. I appreciate that reference 
very much, and Ellen, we are very proud of you.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator. Those were worthy 
reasons for an intervention. The most worthy of all, however, 
notwithstanding our love for Georgia is the fact that you're 
going to support her, and we appreciate that. [Laughter.]
    Have you--I don't know if either of you have schedules that 
you've worked out of who's going first. If not, I will 
recognize Senator Feinstein.

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Is that agreeable with you, Steny?
    Thank you very much. I have Defense Approps at 10:30. So 
this is helpful. Thank you very much.
    And as you said, Mr. Chairman, I'd like to ask that you 
place Senator Boxer's comments----
    The Chairman. Without objection.
    Senator Feinstein. And I know she would reiterate what has 
been said today and I want to thank the Senators, both the 
ranking member and the Senator from Georgia, for their 
comments.
    In the interest of full disclosure, I should tell you that 
Ellen Tauscher is one of my closest friends. I've known her now 
for some 20 years. She's been a trusted supporter and friend. 
We've gone through thick and thin together. So on a personal 
level, the only thing I can say are superlatives and that 
actually comes through on a political level, as well.
    I find her to be a very strong and a determined leader. 
She's had an impressive career inside and outside of government 
and as you know, she's been in the Congress for the last 12 
years.
    She was born in Newark, NJ. She was the first in her family 
to attend college. She earned a degree in Early Childhood 
Education from Seton Hall University and before coming to 
Washington, she worked in the private sector for 20 years, 14 
years on Wall Street, and she was one of the first women to 
hold a seat on the New York Stock Exchange, and also served as 
an officer of the American Stock Exchange.
    In 1989, she moved to California and founded a company 
dedicated to helping parents research the background of 
childcare workers.
    She was first elected to Congress in 1996 to represent the 
10th Congressional District and she was reelected to a seventh 
term in 2008.
    She often boasts that she has the privilege of representing 
some of the smartest people in the world and I think I would 
have to concur. She's got two big nuclear labs in her backyard, 
as you both mentioned. One of them is Lawrence Livermore, the 
other is Sandia.
    On Friday, we were both at Lawrence Livermore to see the 
beginning of the operation of the National Ignition Facility, a 
facility that has not been without its controversy, a facility 
which the interior of which looks very much like Star Wars, and 
a facility which really could hold the future for both fission 
and fusion in this country. It's an amazing facility and there 
is a huge scientific world on the cusp that might be able to be 
pierced because of this facility.
    Congresswoman Tauscher currently serves on the Committee on 
Armed Services of the House and on the Transportation and 
Infrastructure Committee. She is chair of the 67-member New 
Democrat Coalition and serves as a regional whip.
    In the 110th, her colleagues elected her to serve as 
chairman of the Strategic Forces Committee--excuse me--
Subcommittee, becoming only the third woman to chair an Armed 
Services subcommittee, and as chairman of that subcommittee, 
she's become, as you gentlemen have said, a major leader in 
missile defense.
    There's no doubt that she is firmly committed to stopping 
the spread of nuclear weapons and other weapons of mass 
destruction and fighting the development of new nuclear 
weapons.
    She has also taken advantage of her chairmanship to play an 
active role in foreign policy and national security strategy. 
She's traveled extensively throughout the world, participating 
on numerous congressional delegations, to Bosnia, Colombia, 
Germany, Korea, the former Yugoslavia, and Russia. She's been 
to the Middle East six times since 2003, including four trips 
to Iraq.
    Last August, she led a congressional delegation to Iraq 
that met with General Petraeus and Ambassador Crocker, the 
United States troops, and members of the Iraqi Parliament.
    She fully grasps the fact that the United States needs the 
help and cooperation of our closest allies to take on the 
greatest national security challenges.
    As vice chair for the Future Security and Defense 
Capabilities Subcommittee of the Defense and Security Committee 
of NATO's Parliamentary Assembly, she has been active. She has 
participated in the annual Wehrkunde Conference on Security 
Policy in Munich, the Army's War College's Strategic Crisis 
Exercise. She has addressed the Fletcher Conference on National 
Security, and the Army Two-Star Conference for Commanders.
    President Obama and Secretary of State Hillary Clinton have 
laid out a new vision for American foreign policy and national 
security strategy, one based on robust diplomacy and 
multilateral cooperation, a well-trained and equipped military 
and economic and humanitarian assistance for the developing 
world.
    I believe Congresswoman Tauscher will be a dedicated and 
effective advocate for this vision and that she will serve her 
country with distinction and honor. Additionally, she and Jim 
will be married later this month and I think this must be just 
a tremendous treat for him.
    I accompanied them, was it on your first date, on their 
first date. So I don't know quite what that says, except that 
we are indeed good friends and so I strongly introduce and 
recommend her to this committee with deepest respect and with 
feelings of great good luck.
    You're welcome.
    The Chairman. Thank you, Senator Feinstein. That is a 
strong introduction, indeed, and I know it comes not just as a 
good friend but also from your own experience and now as chair 
of the Intelligence Committee and we appreciate your input very 
much.
    Senator Feinstein. Thank you very much.
    The Chairman. Mr. Leader. Congressman Hoyer.

              STATEMENT OF THE HON. STENY HOYER, 
               U.S. REPRESENTATIVE FROM MARYLAND

    Mr. Hoyer. Mr. Chairman, thank you very much for this 
opportunity to appear before you.
    Senator Lugar, one of the most important leaders in this 
country and, indeed, internationally on the issue with which 
Ellen will be dealing shortly.
    My good friend, Congressman Isakson, Senator Kaufman, 
Senator Isakson. I upgraded you.
    I come here with a great deal of conflict. I've been at war 
with myself whether to come here and vigorously oppose this 
nomination or to support it. I talked to Ellen about that. She 
is an extraordinarily value Member of the House of 
Representatives and we will sorely miss her leadership and her 
counsel and her energy and her focus and her devotion to her 
country, but I come, of course, to support this nomination 
because she will be of extraordinary value, not only to the 
Obama administration but to our country and to the 
international community in the task which she has been asked to 
take.
    I therefore am testifying on behalf of her outstanding 
character, integrity, and ability to take on a demanding and 
essential job as Under Secretary for Arms Control and 
International Security. Most of all, of course, I'm here to 
vouch for a dear and close friend.
    I've known Ellen Tauscher since she ran for the House in 
1986. During her service for over a decade in the House, she 
has always impressed me and all of the Members of the House on 
both sides of the aisle, as Senator Isakson so ably testified 
to, with her grasp of the issues, her commitment to making 
America better, her pragmatism, and her skill at building 
consensus.
    I'm not the only one whom Ellen impressed. In a Congress 
that is too often polarized along partisan lines, Congresswoman 
Tauscher has won friends and respect on both sides of the 
aisle. Her temperament makes her well suited to a position at 
the State Department where I'm sure that her diplomatic talents 
will be an ideal for the challenging work she has ahead of her.
    Congresswoman Tauscher will also bring a wealth of 
substantive experience, as has been testified to by all of us. 
She has served for years as a high-ranking member of the House 
Armed Services Committee and has carved out a place as one of 
Congress's most trusted voices on counterproliferation efforts.
    She has traveled to the Middle East six times, as Senator 
Feinstein has pointed out, has frequently attended the 
International Munich Security Conference, and has helped lead 
the Vietnam Veterans of America's Foundation's Nuclear Threat 
Reduction Campaign.
    As chair of the House New Democratic Coalition, she has 
often spoken for Centrist Democrats on pressing issues of 
national security. Indeed, Ellen and I have had the opportunity 
to work very closely together in promoting the national 
security of this country.
    In my view, Mr. Chairman, members of the Committee, 
Congresswoman Tauscher is eminently qualified to serve as the 
Under Secretary. The Obama administration has chosen well.
    The House will miss, as I have said, her unique set of 
skills and experience, and I will miss a dear friend from the 
House, but Secretary Clinton's team and our Nation's security 
will be better off for all the contributions that Congresswoman 
Tauscher will make in the years to come.
    I urge, Mr. Chairman, as you have said, you hope to be the 
case, her earliest possible confirmation and, as is usually the 
case, now that I have concluded, Senator Cardin decides to come 
into the room. [Laughter.]
    The Chairman. That's why your delegation--he's learned. 
That's why your delegation gets along so well.
    Mr. Hoyer. That's right.
    [The prepared statement of Mr. Hoyer follows:]

              Prepared Statement of Hon. Steny H. Hoyer, 
                   U.S. Representative From Maryland

    Mr. Chairman, Members of the Committee:
    Thank you for offering me the opportunity to speak on behalf of 
Congresswoman Ellen Tauscher. I am here to testify on behalf of her 
outstanding character, integrity, and ability to take on a demanding 
and essential job as Undersecretary for Arms Control and International 
Security. Most of all, I am here to vouch for a good friend.
    I have known Congresswoman Tauscher since she ran for the House in 
1996. During her service for over a decade in the House, she has always 
impressed me with her grasp of the issues, her commitment to making 
America better, her pragmatism, and her skill at building consensus. I 
am not the only one whom Ellen impressed--in a Congress that is too 
often polarized along partisan lines, Congresswoman Tauscher has won 
friends and respect on both sides of the aisle. Her temperament makes 
her well suited to a position at the State Department, where I am sure 
that her diplomatic talents will be an ideal fit for the challenging 
work she has ahead of her.
    Congresswoman Tauscher will also bring a wealth of substantive 
experience to the State Department. She has served for years as a high-
ranking member of the House Armed Services Committee and has carved out 
a place as one of Congress's most trusted voices on 
counterproliferation efforts. She has traveled to the Middle East six 
times, has frequently attended the international Munich Security 
Conference and has helped lead the Vietnam Veterans of America 
Foundation's Nuclear Threat Reduction Campaign. As Chair of the House 
New Democrat Coalition, she has often spoken for centrist Democrats on 
pressing issues of national security. In my view, Congresswoman 
Tauscher is eminently qualified to serve as Undersecretary.
    The House will miss her unique set of skills and experience--and I 
will miss a dear friend. But Secretary Clinton's team, and our Nation's 
security, will be better off for all of the contributions that 
Congresswoman Tauscher will make in the years to come. I urge her 
speedy confirmation.

    The Chairman. Well, Congresswoman, I tell you you've had 
two of the best introductions that we've heard up here in 
awhile and I certainly appreciate both our colleagues, Senator 
Feinstein and Steny Hoyer, coming over.
    Thank you very, very much. We know you're busy and need to 
run.
    As I mentioned to you when we chatted previously, I had a 
prior commitment here, but I wanted to get this hearing moving 
and done, so we scheduled it and I wanted to be here for the 
beginning, and I will certainly be here through your statement 
and so forth.
    Senator Kaufman has agreed and he will chair in my absence 
and I thank you for your indulgence.
    If we could ask you, I know you have some family here and 
folks you might want to introduce as you begin, and we look 
forward to your testimony.

 STATEMENT OF HON. ELLEN O. TAUSCHER, U.S. CONGRESSWOMAN FROM 
CALIFORNIA, AND NOMINEE TO BE UNDER SECRETARY FOR ARMS CONTROL 
                   AND INTERNATIONAL SECURITY

    Ms. Tauscher. Thank you very much, Senator. I would be very 
honored to introduce my father John O'Kane, my fiance Jim 
Cieslak is here, my nephew Connor Bender, my very close family 
friend Marty Robinson, Ginger Paper who is my daughter's 
godmother, my chief of staff is here, my pals are here, 
Congresswoman Sue Myrick from North Carolina, and Congresswoman 
Carolyn McCarthy from New York, and earlier, one of your 
colleagues, the ranking member of the House Foreign Affairs 
Committee, Ileanna Ros-Lehtinen, came by and she's off to chair 
a subcommittee.
    The Chairman. Well, that's really a nice thing, and 
Congresswomen, we really appreciate your coming over. That's a 
big deal. We thank you.
    Ms. Tauscher. Thank you. Thank you, Senator.
    I just want to very briefly thank the colleagues that came. 
I want to thank Mr. Hoyer, the majority leader, for his 
comments and the kind words and his steadfast friendship and 
it's been an honor serving with him, and I know the House is in 
good hands with Nancy Pelosi and Steny Hoyer.
    And for Senator Feinstein, she is right, she is one of my 
closest friends. I've been enormously blessed to not only have 
an icon of political and public service to be such a close 
friend but a woman who is a great mother, grandmother, and wife 
to be a close friend in public policy and that is a true 
inspiration to me.
    Mr. Chairman, I want to congratulate you on your new role. 
I am enormously impressed with the energy and creativity you've 
brought to the committee, especially the pace and the depth of 
the committee's hearings and investigations.
    You have had an extraordinary journey since you first 
testified before this committee in 1971. Our Nation is better 
off because of your determination and courage that you have 
shown throughout your life.
    Senator Lugar, I admire your passion for keeping the world 
safe from nuclear weapons. I have long considered myself a 
fellow traveler on these issues and it would be an honor to 
work with you, should I be confirmed.
    I also want to thank my fellow Californian, Senator Barbara 
Boxer, who is chairing the EPW hearing right now, for her long-
time support and friendship, and I want to acknowledge, in 
addition to the other distinguished members of the committee, 
my former House colleagues. I want to thank especially Senator 
Johnny Isakson and Senator Ben Cardin for being here and 
Senator Kaufman. It's good to see you.
    Should I be confirmed, I will miss serving in the House and 
it's been a wonderful and rewarding experience. I want to 
especially thank my constituents in California's 10th 
Congressional District. It has been an honor to serve them for 
the past 13 years and I wouldn't be here if it were not for 
them.
    I wanted to again acknowledge my family members who are 
here for their love and support and my family that cannot be 
here today for their love and enduring support.
    Senator Kerry, Senator Lugar, and the members of the 
Committee, it's an honor and a privilege to appear before you 
as President Obama's nominee for the position of Under 
Secretary of State for Arms Control and International Security. 
I am deeply grateful for the trust that both President Obama 
and Secretary Clinton have placed in me and I look forward to 
working with Vice President Biden who has brought years of 
passion and understanding to these issues.
    Even though I might be leaving the House, I won't be going 
far. I want to assure you that should I be confirmed, I will be 
in frequent and close contact with this committee and with the 
relevant committees in the House and Senate.
    Like all Americans who are my age and grew up during the 
cold war, I participated in my share of duck and cover drills 
as a little girl growing up in East Newark, NJ. I can remember 
walking home from school for lunch as planes flew overhead to 
land at nearby Newark Airport, reciting the Rosary and praying 
that there would not be nuclear war.
    I developed an interest and expertise in nonproliferation 
issues because I have had the honor and privilege to represent 
the only congressional district in the United States with two 
national nuclear laboratories, Lawrence Livermore and Sandia, 
CA.
    After I was first elected to Congress in 1996, I joined the 
House Armed Services Committee and the Strategic Forces 
Subcommittee which I now chair. Since then, stopping nuclear 
proliferation by protecting our stockpile, maintaining the 
credibility of our deterrent and preventing terrorists from 
getting hold of a weapon of mass destruction has become my 
life's work.
    In his speech in Prague earlier this spring, President 
Obama called for a world without nuclear weapons, a goal shared 
by Presidents Kennedy and Reagan. It is a goal that has 
bipartisan support from Senator John McCain, military leaders 
like Colin Powell, and three former Secretaries of State and 
Defense from both parties, and former Senator Sam Nunn. I, too, 
want to work with you toward that goal.
    As President Obama has said, this is not a world where we 
will unilaterally disarm but one in which we will reduce our 
arsenals based on mutual agreements, verification, and 
compliance. We will maintain a safe, secure, and reliable 
deterrent against any adversary and an effective defense for 
our allies while we work toward reducing the world's nuclear 
arsenal.
    President Obama vowed to put his energy and muscle behind 
this dream, even though he, like his predecessors, acknowledged 
that it will take patience and persistence and that it might 
not happen in our lifetime.
    By reducing our nuclear arsenal, I believe that we will be 
in a better position to secure the international cooperation 
necessary to strengthen efforts to prevent the spread of 
nuclear as well as chemical and biological weapons.
    These are weighty and complex topics that I would confront 
if confirmed as Under Secretary of State and I would like to 
spend a few more minutes reviewing a few issues.
    Progress toward a nuclear-free world begins with a new 
verifiable agreement to further reduce the United States and 
Russia's strategic nuclear arsenals. The United States and 
Russia have made great progress together under the Intermediate 
Range and Shorter Range Nuclear Forces, called INF Treaty, the 
Strategic Arms Reduction Treaty, called START, and the Moscow 
Treaties, to greatly reduce our nuclear arsenals.
    But START, the verification program at the foundation of 
our strategic disarmament agenda, expires in December. We have 
less than 6 months to establish a successor to START.
    The United States and Russian delegations are already hard 
at work to develop a treaty that builds on the progress we have 
made and provide a foundation for further reductions.
    The follow-on agreement will serve our country well by 
ensuring predictability and transparency in our strategic 
nuclear relationship with Russia. I look forward to seeking 
your input on this matter.
    The nuclear threat that President Obama outlined in his 
speech in Prague is both more complex and unpredictable than it 
was a generation ago. Dangerous terrorists seeking the world's 
most dangerous weapons have turned the nuclear equation upside 
down.
    The best way to stop terrorists from getting their hands on 
nuclear weapons is to safeguard the existing stockpile and 
secure bombmaking fissile material at their source.
    Thanks to Senator Lugar and former Senator Sam Nunn, our 
Cooperative Threat Reduction Assistance Programs have made 
great strides in upgrading the security at Russian nuclear 
facilities, but the problem is not confined to Russia. We need 
to move potentially vulnerable highly enriched uranium from 
research reactor sites around the world. We need to convert 
those reactors to operate with low enriched uranium which 
cannot be used in nuclear weapons.
    So I want to work with you to help achieve President 
Obama's goal of securing all vulnerable nuclear material within 
4 years.
    We must also continue to look for ways to enhance our 
security by helping others destroy weapons of mass destruction, 
such as the successful effort to help destroy chemical weapons 
in Russia which you, Senator Lugar, most recently witnessed in 
Russia on May 29.
    In addition, Secretary Clinton underscored that the 
nonproliferation treaty is the cornerstone of the 
nonproliferation regime and the United States must exercise the 
leadership needed to shore up the regime.
    To this end, the Obama administration has developed a 
nuclear nonproliferation strategy based on multiple fronts. 
Effective verification and compliance are fundamental to its 
approach.
    First, if confirmed, I will focus on helping the 
administration negotiate a global verifiable fissile material 
cutoff treaty. With this, this is a heavy lift, and it is my 
goal to work closely with this committee and the full Senate to 
help manage a path forward.
    Second, the Obama administration is strongly committed to 
working with members of this committee and with Members of the 
Senate to obtain your advice and consent to construct a way to 
ease any concern, especially as they relate to compliance and 
verification with respect to the Comprehensive Test Ban Treaty.
    In my view, working toward ratification of the 
Comprehensive Test Ban Treaty is one way we can persuade other 
states to permanently end nuclear testing and curb the 
proliferation of nuclear weapons.
    If I am confirmed, I will work closely with you, Mr. 
Chairman, Senator Lugar, and the members of this committee to 
make sure you have the most up-to-date military and diplomatic 
and technical analysis on issues relating to the CTBT.
    In addition, we must continue to focus special attention on 
the urgent challenges that North Korea and Iran pose to the 
international nonproliferation regime. If confirmed, I look 
forward to working closely with my colleagues in the 
administration and in the Senate and the House to implement the 
President's policy of helping Iran make the right choice and 
end its pursuit of a nuclear weapons capability.
    Finally, if confirmed, I plan to focus on the 
revitalization of the International Atomic Energy Agency which 
implements NPT-mandated safeguards. Instead of allowing NPT 
Member States to reap the benefits of the treaty and then 
withdraw to build a military arsenal, the international 
community should achieve a consensus on the measures that must 
be taken to prevent such a scenario.
    I have just highlighted the issues that are most timely and 
topical and of immediate interest to the committee and to the 
American people. Should I be confirmed, I will have the 
responsibility for a range of additional policy areas and 
treaties, and I look forward to consulting closely with this 
committee on those issues, as well.
    Mr. Chairman, Ranking Member Lugar, and the members of the 
committee, thank you for your leadership on these issues and 
thank you for your time and consideration of my nomination.
    I would be pleased to answer any questions you might have.
    [The prepared statement of Ms. Tauscher follows:]

  Prepared Statement of Representative Ellen O. Tauscher, Nominee for 
      Under Secretary for Arms Control and International Security

    Majority Leader Hoyer, thank you for your kind words and your 
steadfast friendship. It has been an honor serving with you and I know 
the House is in good hands with your leadership.
    Senator Feinstein, thank you for your generous introduction. Most 
importantly, thank you for your friendship and partnership over these 
many years. For so many people, especially women, you are an icon. To 
me, you are a model public servant and an inspiration.
    Mr. Chairman, congratulations on your new role. I am impressed with 
the energy and creativity you have brought to the committee, especially 
the pace and depth of the committee's hearings and investigations. You 
have been on an extraordinary journey since you testified before this 
committee in 1971. Our Nation is better off because of your 
determination and courage.
    Senator Lugar, I admire your passion for keeping the world safe 
from nuclear weapons. I have long considered myself a fellow traveler 
on these issues and it would be an honor to work with you should I be 
confirmed.
    I also want to thank my fellow Californian, Senator Barbara Boxer, 
for her longtime support and friendship and, I want to acknowledge my 
former House colleagues, now representing their great States in the 
Senate, Ben Cardin, Jim DeMint, Kirsten Gillibrand, Johnny Isakson, 
Robert Menendez, and Roger Wicker.
    I will miss serving in the House. It has been a wonderful and 
rewarding experience. I want to especially thank my constituents in 
California's 10th Congressional District. It has been an honor to serve 
them for the past 13 years and I wouldn't be here if it were not for 
them.
    Finally, I want to acknowledge my father, John O'Kane, my nephew, 
Conor, and my fiance, Jim Cieslak, who are here today.
    Mr. Chairman, Ranking Member Lugar, and members of the Senate 
Foreign Relations Committee, it is an honor and privilege to appear 
before you as President Obama's nominee for the position of Under 
Secretary of State for Arms Control and International Security. I am 
deeply grateful for the trust that both President Obama and Secretary 
Clinton have placed in me.
    I also look forward to working with Vice President Biden, who has 
brought years of passion and understanding to these issues.
    Even though I might be leaving Congress, I won't be going far. I 
assure you that I will be in frequent and close contact with this 
committee, the House Foreign Relations Committee, and the House and 
Senate appropriations committees.
    Like all Americans who are my age and grew up during the cold war, 
I participated in my share of ``duck and cover drills'' as a little 
girl in East Newark, NJ. I can remember walking home from school for 
lunch, as planes flew overhead, reciting the Rosary, and praying that 
there would not be nuclear war.
    I developed an interest and expertise in nonproliferation issues 
because I have had the opportunity to represent the only congressional 
district in the country with two nuclear laboratories, Lawrence 
Livermore and Sandia California. After I was first elected to Congress 
in 1996, I decided to join the House Armed Services Committee and the 
Strategic Forces Subcommittee, which I now chair.
    So thanks to my constituents, and by dint of geography, working to 
reduce the threat of nuclear and stopping the proliferation of weapons 
of mass destruction has become my life's work.
    I realize that if confirmed as Under Secretary of State I will have 
multiple areas of responsibility. Let me review several of them.
    First, I will have an opportunity to advance the President's agenda 
on missile defense. In my current capacity as chair of the Strategic 
Forces Subcommittee, I have traveled throughout the world to address 
the threat of missile proliferation and promote missile defense 
cooperation and I am committed to working with our friends and allies 
to defend against the threat from ballistic missiles.
    I share the President's commitment to better protect our forces and 
those of our allies by fielding our most capable theater missile 
defense systems, including the Terminal High Altitude Area Defense 
System and Standard Missile 3 programs. I look forward to working with 
you and the other relevant committees to promote our missile defense 
efforts.
    I also look forward to working with you to ensure that the State 
Department has a smart approach to arms transfers and security 
assistance so that we contribute to our Nation's security and to that 
of our allies. In this context, I will continue to seek your advice for 
ways to make our defense trade export licensing system more efficient 
and timely, while keeping controls on the sensitive goods and 
technologies that will maintain U.S. superiority in military conflicts.
    By working together, I am hopeful that we provide our allies and 
partners with military training and the equipment that they need to 
protect their own national security needs and to operate with U.S. 
forces in coalition operations. I will work to promote our diplomatic 
counterpiracy agenda, focusing on the Secretary's themes of 
multilateral coordination, removing barriers to prosecutions of 
suspected pirates, and working with the shipping industry on self-
protection measures.
    As you know, the principal focus of this job is to stop the 
proliferation of nuclear weapons and material.
    In his speech in Prague earlier this spring, President Obama called 
for a world without nuclear weapons. I am committed to working toward 
that goal; a goal that is shared by Senator John McCain, military 
leaders like Colin Powell and three former Secretaries of State and 
Defense from both parties and Senator Sam Nunn (D-Ga.).
    As the President said, we do not live in a world where we 
unilaterally disarm, but one in which we reduce our nuclear arsenals 
based on mutual agreements, verification, and compliance.
    By reducing our nuclear arsenal, the United States, in my view, 
will be in a better position to secure the international cooperation 
necessary to strengthen efforts to prevent the spread of nuclear as 
well as chemical and biological weapons.
    I believe that we will also be more prepared to respond to cases of 
noncompliance with the Nuclear Nonproliferation Treaty by states such 
as Iran and North Korea.
    Presidents Kennedy and Reagan also shared this dream. Forty-five 
years ago, President Kennedy encouraged us not to succumb to cynicism. 
In a speech given at American University, he said that ``Our problems 
are man-made therefore they can be solved by man.'' And women.
    He also said then that a belief that we cannot achieve a nuclear 
free world is a ``dangerous, defeatist belief. It leads to the 
conclusion that war is inevitable, that mankind is doomed, that we are 
gripped by forces we cannot control.''
    Speaking before the Japanese Diet in 1983, President Ronald Reagan 
said, ``The only value in possessing nuclear weapons is to make sure 
they can't be used ever. I know I speak for people everywhere when I 
say our dream is to see the day when nuclear weapons will be banished 
from the face of the Earth.''
    President Obama--like his predecessors--acknowledged that achieving 
this goal will take ``patience and persistence,'' and that it might not 
happen in our lifetime.
    Nevertheless, I want to work with you, together, to take the 
necessary steps to reduce the world's nuclear arsenals while making 
sure that we maintain a safe, secure and reliable deterrent against any 
adversary and an effective defense for our allies.
    As you know, the threat that President Obama outlined in his speech 
in Prague is both more complex and unpredictable than it was a 
generation ago. Dangerous terrorists seeking the world's most dangerous 
weapons have turned the nuclear equation upside down.
    President Obama highlighted this when he said that, ``the threat of 
global nuclear war has gone down, but the risk of a nuclear attack has 
gone up. More nations have acquired these weapons. Testing has 
continued. Black market trade in nuclear secrets and nuclear materials 
abound. The technology to build a bomb has spread. Terrorists are 
determined to buy, build, or steal one. Our efforts to contain these 
dangers are centered on a global nonproliferation regime, but as more 
people and nations break the rules, we could reach the point where the 
center cannot hold.''
    The devastation from even a small nuclear bomb exploding in our 
Nation's Capital is unthinkable. My good friend, Senator Joseph 
Lieberman, has studied this issue. According to testimony before the 
Senate Homeland Security and Governmental Affairs Committee last year, 
a 10-kiloton device detonated near the White House would kill more than 
100,000 people. Another 100,000 would need to be decontaminated from 
the radiation. It's unlikely that our Government, or any government, is 
equipped to handle a crisis like that.
    Beyond the terrifying loss of life, such an attack would threaten 
our economy, our social fabric, and our way of life.
    These issues underscore the serious responsibility that I will 
undertake if confirmed as Under Secretary of State. Please allow me to 
review a few of these issues in greater detail.
    Progress toward a nuclear free world begins with a new verifiable 
agreement to further reduce the United States and Russian strategic 
nuclear arsenals. The United States and Russia competed with one 
another for years by expanding the size and increasing the scope of our 
nuclear arsenals. But we have made great progress working together 
under the INF, START, and Moscow treaties to greatly reduce our nuclear 
arsenals.
    START, the treaty at the foundation of our strategic disarmament 
agenda, expires in December. We have 6 months to establish a successor. 
The United States and Russian delegations are already hard at work to 
develop a treaty that builds on the progress we have already made and 
provide a foundation for further reductions.
    The follow-on agreement will serve our country well by ensuring 
predictability and transparency in our strategic nuclear relationship 
with Russia. I look forward to seeking your input on this matter.
    We must continue to focus special attention on the urgent 
challenges that North Korea and Iran pose to the international 
nonproliferation regime. If confirmed, I look forward to working 
closely with my colleagues in the administration and the Congress to 
implement the President's policy of helping Iran make the right choice, 
to end its pursuit of a nuclear weapons capability and to rebuild the 
trust of the international community by fulfilling all of its United 
Nation Security Council, nonproliferation, and other obligations.
    North Korea's nuclear test represents a grave threat to regional 
and international security. I want to work together to ensure that 
North Korea returns to the negotiating table and abandons its nuclear 
program in a complete and verifiable manner.
    At the same time, I am hopeful that we can work together to come up 
with a strategy to reduce the incentive for countries to pursue similar 
capabilities by supporting the expansion of nuclear energy in 
conformity with the highest standards of safety, security, and 
nonproliferation. I want to assure you that verification and compliance 
would be at the heart of any agreement.
    In her Senate confirmation testimony, Secretary Clinton underscored 
that the Nonproliferation Treaty is the cornerstone of the 
nonproliferation regime, and the United States must exercise the 
leadership needed to shore up the regime. To this end, the Obama 
administration has developed a nuclear nonproliferation strategy based 
on multiple fronts. Effective verification and compliance are 
fundamental to its approach.
    The Obama administration is strongly committed to working with 
members of this committee and with all Members of the Senate to obtain 
your advice and consent to construct a way to ease any concerns, 
especially as they relate to compliance and verification with respect 
to the Comprehensive Test Ban Treaty.
    In my view, working toward ratification of the Comprehensive Test 
Ban Treaty is one way that we can persuade other states to permanently 
end nuclear testing and curb the proliferation of nuclear weapons. If I 
am confirmed, I will work closely with you, Mr. Chairman, Senator 
Lugar, and the members of this committee, to make sure you have the 
most up-to-date technical, military, and diplomatic analyses on issues 
relating to the CTBT.
    To this end, I share the administration's commitment to obtaining 
the Senate's advice and consent to ratify the Comprehensive Test Ban 
Treaty and to launch a diplomatic effort to bring states that have not 
signed the treaty on board so that it can be brought into force. I 
will, if confirmed, work closely with you and your staffs, to ease 
concerns, especially as they relate to compliance and verification.
    As you know, significant progress has been made over the last 
decade in our ability to verify a comprehensive nuclear test ban. 
Confidence has also grown in our ability to maintain our nuclear 
deterrent without testing.
    Last month, I attended the dedication of the National Ignition 
Facility, the largest laser in the world, located at the Lawrence 
Livermore Lab in my district in California, which will allow the United 
States to replicate conditions occurring in a nuclear explosion without 
the need for an actual test. The network of sensors that make up the 
CTBTO's International Monitoring System proved its value in detecting 
the latest North Korean test, as well as its 2006 test.
    If I am confirmed, I will focus hard on that effort to make sure 
you have the most up-to-date technical, military, and diplomatic 
analyses on issues relating to the CTBT.
    As part of my responsibilities if I am confirmed, I would help the 
administration negotiate a global, verifiable Fissile Material Cutoff 
Treaty. In my view, such a treaty is a critical step toward containing 
the growth of military nuclear programs around the world.
    The best way to stop terrorists from getting their hands on nuclear 
weapons is to secure bombmaking fissile materials at their source. 
Thanks to Senator Lugar and former Senator Sam Nunn's visionary 
leadership, our cooperative threat reduction assistance programs have 
made great strides in upgrading security at Russian nuclear facilities.
    But the problem is not confined to Russia. We need to remove 
potentially vulnerable highly enriched uranium from research reactor 
sites around the world and to convert those reactors to operate with 
low-enriched uranium, which cannot be used in nuclear weapons. These 
are urgent tasks and I want to work together to achieve President 
Obama's goal of securing all vulnerable nuclear material within 4 
years.
    We must also continue to look for ways to enhance our security by 
helping others destroy weapons of mass destruction, such as the 
successful effort to help destroy chemical weapons in Russia, which 
you, Senator Lugar, most recently witnessed in Russia on May 29.
    I look forward to working with you to develop measures to secure 
nuclear materials so that they do not fall into the hands of 
terrorists.
    In addition, I will work to revitalize the International Atomic 
Energy Agency, which implements NPT-mandated safeguards. As more 
countries look to nuclear power to answer their energy needs, we must 
ensure that the international body is equipped to inspect and oversee 
their programs and help them ensure the physical security of their 
nuclear installations and materials. We also must work with the 
international community to establish clear and enforceable penalties 
for those who abuse the NPT's right of withdrawal.
    Nuclear materials are of special concern, and I look forward to 
working with President Obama to organize a global summit on securing 
nuclear materials next year. It will be vital to build upon Senator 
Lugar's efforts to strengthen our threat reduction programs around the 
world to reduce the threat from unsecured weapons, components and other 
materials that terrorist organizations or other nongovernment actors 
could use to further their ends.
    The A.Q. Khan nuclear black market network proves how important it 
is to work harder to strengthen U.S. and multilateral export controls 
and to implement United Nations Security Council Resolution 1540 more 
effectively. I want to work with you to expand and institutionalize 
these nonproliferation tools, including our efforts to interdict 
shipments of weapons of mass destruction through the Proliferation 
Security Initiative.
    But beyond the policies, and perhaps even more importantly, I want 
to work with you to communicate the importance of arms control and 
nonproliferation.
    We need a constant, deliberate effort to contain and reduce the 
number of nuclear weapons in the world. We need to tell a better story 
and develop a better narrative to convey why this issue, which for many 
harkens back to a bygone era, is still important. We need clearer 
symbols and optics so that your constituents and citizens around the 
world understand why we're doing what we're doing.
    The ever-present threats around the globe mean the clock is 
ticking. My hope is that we can work together to enact verifiable 
treaties and strengthen existing regimes, including the Missile 
Technology Control Regime, the Nuclear Suppliers Group, the Australia 
Group, and the Wassenaar Arrangement. We can implement the President's 
call to make the PSI and Global Initiative enduring international 
institutions.
    I believe that these actions will send a message that the 
international community will no longer tolerate proliferation of 
weapons of mass destruction and their delivery systems.
    Mr. Chairman, Ranking Member Lugar, and members of the committee, 
thank you for your leadership on these issues and thank you for your 
time and consideration of my nomination. If I am confirmed by the 
Senate, I look forward to working with you on a wide range of national 
security initiatives that President Obama has proposed. I would be 
pleased to answer any questions you might have.

    The Chairman. Well, thank you very much, Congresswoman. We 
appreciate that comprehensive statement and a number of the 
issues that you raised in it.
    I'm just going to ask a couple quick questions before I 
have to run.
    First of all, what role do you plan to play or have they 
asked you to play with respect to the Nuclear Posture Review?
    Ms. Tauscher. That's an excellent question, Senator Kerry.
    As you know, the NPR, Nuclear Posture Review, is underway 
and it is normally undertaken predominantly by the Pentagon and 
Department of Defense and the Interagency and I'm happy to say 
that under the Obama administration, with Secretary Clinton's 
leadership, the State Department and specifically the Under 
Secretary of State for Arms Control and International Security 
plays a very big role.
    There are already staffers working in both the VCI, the 
Verification Compliance and Inspection, and the ISN Agencies, 
Bureaus of this Under Secretariat, working collaboratively 
right now. So I believe that there's going to be significant 
State input, I think we're the better for it, and as a 
corollary, I will tell you that on the QDR, the State 
Department has a lot more input than it has in the past, and I 
think that that talks about the robust kind of policy.
    The Chairman. The review is going to be in December?
    Ms. Tauscher. Yes, it will be.
    The Chairman. So we obviously hope very much on this 
committee--I mean, I think that any kind of review that doesn't 
take into account some of the larger interconnections and 
policy questions is not a very intelligent review. That's not 
to say that, you know, others won't have that, but I think the 
multiplicity of sensitivities that get brought to the table 
from different departments is important.
    Ms. Tauscher. I agree.
    The Chairman. So we hope you will press that, No. 1, and 
No. 2, we hope you will keep this committee fully and currently 
informed of sort of where that is going and the progress in 
that discussion.
    Ms. Tauscher. I will, sir.
    The Chairman. And I think that's very important and also 
very important in terms of our thinking about the CTBT and how 
we proceed here and so on and so forth.
    Ms. Tauscher. Yes, sir.
    The Chairman. A second quick question is on the Defense 
Trade Cooperation Treaty with the United Kingdom and Australia. 
Those are both in front of the committee.
    I want to get those both done as rapidly as possible, but 
last fall, both Chairman Biden and Senator Lugar raised concern 
about exactly how it's going to be implemented. We're trying to 
work that through now and we intend to work it through, but I 
just want to make sure--it may not be the department's 
preferred approach, but I'd like to make certain you'll work 
with the committee.
    If we decide that the best way to ensure that the treaty, 
once, you know, brought into effect, is going to be implemented 
properly, we may have to do a couple of things here and we'd 
like your cooperation in that effort.
    Ms. Tauscher. Senator, you have my pledge to work 
cooperatively and it will be, should I be confirmed, one of the 
first things that I think I would be coming to see you about.
    The Chairman. OK. Also, you've noted the potential 
advantage of nuclear power and what it might offer and I don't 
disagree. I've been busy. I just came back from China and a 
number of other countries in the Middle East, elsewhere, and 
nuclear powerplants are going up. It's going to be a key part 
of our energy future, like it or not, or whatever the options 
for the moment, and obviously there are always nonproliferation 
concerns.
    With that in mind, Senator Lugar and I both supported the 
United States-India Agreement for cooperation of peaceful uses 
of nuclear energy and you did not, I know, but now we have 
another agreement which is before the committee for its review 
and that's between the United States and the United Arab 
Emirates.
    I'd just like to get your quick views on that and do you 
think that could provide a model for nonproliferation 
protections as we go forward?
    Ms. Tauscher. I strongly support the UAE 123 Agreement, 
Senator, and I urge its support here in the Senate. I think 
that it is, as you have said, a model agreement. It is not only 
one that is buttoned up, as we should say, in regards to 
nonproliferation but it is also one that I think strengthens 
the security of the region and I think that is an important 
secondary issue.
    It is important for us to have these agreements as they 
mature and move forward that we can offer to other countries 
and I think that the UAE 123 Agreement is an example of that.
    The Chairman. Great. And finally, I would really ask for 
your help and cooperation. The President has stated his 
intention to aggressively and immediately pursue the 
ratification of the Comprehensive Test Ban Treaty. I supported 
that. I do support it. I want to see us proceed forward.
    We have had some disagreement on the committee and 
obviously in the Senate, it wasn't ratified, and it's been 10 
years since that issue has been in front of the committee, in 
front of the country. So the cooperation I ask is we're going 
to begin working very closely with the labs. We have actually 
already begun.
    We need to know before the Congress, I know Senator Lugar 
needs to know, others on the committee want to be convinced 
that things have changed in those 10 years that warrant an 
adoption of this agreement at this point in time, and so that 
will be a very important part, I think, of your portfolio with 
respect to the Congress and I'd ask your cooperation in helping 
us to fully vet that properly and prepare the committee and the 
Congress so we have real answers and we do not want the 
politics of this to take over. We want this to be based on 
legitimate security interests and those should be based on 
facts.
    Ms. Tauscher. Well, Senator, you have my pledge to work 
closely with the committee. As you have said, this is one of 
the most important issues that the President has put before the 
Under Secretary of Arms Control and International Security and 
should I be confirmed, it will be very important for me to work 
with this committee.
    As you have said, in the 10 years since the 1999 
consideration of the CTBT by the Senate, there have been 
enormous changes in the verification pieces of the science, in 
the safeguards. We have 10 full years of certification by the 
lab directors of the safety and reliability and security of the 
stockpile, and we have had tremendous advances by the CTBO, the 
organization that monitors and manages the CTBT Treaty, on 
being able to deal with seismology and understanding exactly 
what events are around the world so that we could have a sense 
for what is happening.
    So I think that there's a lot of new information out there 
but it will be my responsibility and my honor to work very 
closely with you to make sure that the committee has everything 
it needs in the military analysis, the scientific and technical 
analysis, and the diplomatic analysis as to why this would be 
the right time to consider the CTBT.
    The Chairman. Terrific. Well, we look forward to doing 
that, and let me just say on a personal level again how excited 
I am about your nomination. I enjoyed so much working with you 
the numbers of times we've had a chance to do that.
    Ms. Tauscher. Thank you, Senator, very much.
    The Chairman. I have great respect for you personally.
    Ms. Tauscher. Thank you very much. I appreciate it very 
much.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you.
    Let me pick up the conversation with regard to the Nuclear 
Posture Review and in response to questions that we posed for 
the record and which you've already answered, you noted there 
is an ongoing Nuclear Posture Review and the administration 
will complete it this year. The NPR will make key decisions 
regarding future size and composition of our strategic nuclear 
forces.
    I raise the question today because some would prefer to 
wait for the outcome of this review before completing arms 
control negotiations with Russia. We've already outlined 
extensively the December 5 deadline which is critical. Rose 
Gottemoeller and her team are at work and are making progress, 
as far as we can tell.
    President Obama and President Medvedev apparently hope to 
make some statements about the situation when they meet in 
July, and we still then have before us ratification by the 
Senate of the treaty which gets into scheduling problems and 
other difficulties as we try to address the rest of the agenda.
    But in the face of this, I do believe that there are many 
difficulties in negotiating the successor to the START Treaty 
with Russia while the Nuclear Posture Review is underway. How 
should we answer critics who would say that your December 5 
thing is one factor, but we've not really heard the verdict on 
the Posture Review?
    Ms. Tauscher. I think that's an excellent question, 
Senator, and I think that we're going to do a number of things 
to allay the concerns that have been expressed and I think 
that, while they are serious concerns, I think that we can 
allay those concerns.
    First and foremost, we have the ability to multitask. So 
while we are going through the Nuclear Posture Review, at the 
same time there is guidance from the Pentagon as to the 
military requirements for the stockpile and a number of other 
issues that are informing the negotiations and our negotiators.
    On July 15, Rose Gottemoeller, our Assistant Secretary, 
primary negotiator for the START Treaty, will come up to the 
Senate and will meet with, for example, the National Security 
Working Group.
    Should I be confirmed by then, I would expect that a number 
of my visits up here will be to make sure that we are outlining 
exactly where we are on the negotiations, what the tenor and 
scope of the negotiations are, and how it dovetails with what 
is going on with the NPR, and I'm confident that we can assure 
everyone that while, it looks as if there's a review going on 
and we're going ahead and making decisions, that what is going 
on in the review is informing what is going on in the 
negotiations and that I think that it is necessary because of 
the deadline of December 5 for the expiration of START that we 
do that that way.
    It is not perhaps the preferred way of doing it but it is, 
I think, one that you can be assured is fully informed as to 
what the NPR and the military requirements in the Pentagon and 
the Interagency are talking about, is part of what the 
negotiating guidance is.
    Senator Lugar. Well, that is very reassuring and we'll work 
together to try to reassure colleagues.
    Ms. Tauscher. I appreciate that, Senator. I'm going to need 
your help on that.
    Senator Lugar. On May 10, Assistant Secretary of State for 
Verification and Compliance and Implementation Rose 
Gottemoeller stated, ``The United States will seek a new treaty 
that verifiably ends production of fissile materials intended 
for use in nuclear weapons'' better known as the Fissile 
Material Cutoff Treaty.
    Now, on May 29, at a Conference on Disarmament in Geneva, a 
new work plan was agreed to that will permit negotiations to 
begin on a Fissile Material Cutoff Treaty. You stated in 
response to questions we posed to you and I'm quoting the 
specific answer you provided, ``We are reviewing the 
verification issues related to a potential treaty,'' and you've 
restated that again today.
    But now, state for the record and this hearing, what are 
the fundamental challenges in your view that we will face in 
concluding such a treaty? And in your advance answer, you state 
that ``our challenge now is to get negotiations on FMCT 
started. This step was necessary before briefings could be 
offered to the committee.''
    Given the news from Geneva now, have negotiations now in 
fact started and if so, when can we expect you or other senior 
officials to discuss them with this committee?
    Ms. Tauscher. Well, Senator, I understand your concern and 
I think that, should I be confirmed, you have my pledge that we 
will continue to work very closely and cooperatively and 
transparently as best we can, not in open session, of course, 
to assure you that while there are challenges, both technically 
and politically, to verification of strict limits and the 
things that we know that we have to be assured of, we believe 
that the confidence-building measures that are being conducted 
in support of these agreements are really accruing to the 
United States, better national security and better sense of a 
relationship with Russia.
    As you know, we need Russia on many different issues and I 
think that we are very pleased with how these negotiations are 
going. Everyone is aware of the December 5 deadline. Everyone 
is concerned that we've had to begin this while we have the NPR 
going on.
    But having said that, it will be with very close 
consultations with the Senate. It will be with very close 
consultations in the Interagency and the exposure that I think 
that my confirmation can bring to the process that we will be 
able to assure you and other Senators that everything we're 
doing is within the scope of the things that have been 
promised, that we will have a verifiable treaty and one that 
will serve the national security interests of the United 
States.
    Senator Lugar. Well, this is also reassuring. You've 
stressed the importance of the Fissile Material Cutoff Treaty 
and the importance of all of us staying in touch and are able 
to collectively respond to questions that are raised by critics 
as well as friends of the process.
    Let me now mention chemical weapons. As has been mentioned, 
I had the privilege of being in Shchuchye with our Ambassador 
to Russia, John Beyrle. The Ambassador did a wonderful job of 
highlighting the importance of Russian-American cooperation. I 
believe the event generated strong feelings about the project 
and the value it will have to U.S. and Russian security. The 
destruction facility is an enormous effort that cost more than 
a billion dollars of American taxpayer funds. It is a massive 
response to a critically dangerous problem.
    However, even though chemical weapons destruction has been 
important, it has often been overlooked. I have expressed 
concerns about the U.S. commitment to the OPCW, the governing 
body overseeing implementation of the Chemical Weapons 
Convention. I am extremely concerned about cuts made by the 
Department of Commerce's treaty implementation and the adverse 
affects these decisions will have on our ability to keep key 
staff positions within the mission at OPCW.
    This is always a problem when working with multiple Cabinet 
agencies but I mention it because we made a record of the 
history of Shchuchye. It involved, as you will recall, 3 years 
in which the House of Representatives refused to appropriate 
any money at all.
    So in Russia things just stopped because we were having a 
dispute here in the Congress. Fortunately we were able to get 
the project going again but then Congress imposed so many 
restrictions and stipulations that the administration was 
unable to agree with all of them and so again nothing happened.
    I suspect that most observers of arms control, when they 
see nuclear weapons, 13,300 warheads that were once aimed at 
the United States, as the major problem, but the chemical 
weapons as represented in Shchuchye are very troubling because 
they are small, 85mm and some are larger, of course----
    Ms. Tauscher. Portable.
    Senator Lugar [continuing]. That is correct. The 
portability of the weapons made them a potentially greater 
threat in the hands of terrorists. The terrorist threat was one 
of the reasons the Russians have cooperated on the project 
because they face serious domestic terrorist threats. It would 
otherwise be counterintuitive for the United States military 
and our contractors, to go to Russia and destroy 2 million 
weapons with the Russians cheering.
    But the dilemma still is that there are probably 1,800,000 
still to eliminate in the next 4 or 5 years. I pray that by 
drilling two holes in the bottom of each one of them, 
extracting the agent, performing what they call bituminization, 
that is solidifying, and then storing it in secure facilities 
that we can eliminate this threat. But this will require a 
systematic approach with great patience and leadership to keep 
the project moving in the right direction.
    Ambassador Pferter, the Secretary General of the 
Organization for the Prohibition of Chemical Weapons, also was 
in attendance at the opening of Shchuchye. His participation 
was very important because the Russian press pressed the 
Russian leaders on if they will meet the Chemical Weapons 
Convention deadline of 2012?
    Well, amazingly, the Russians replied that they would and 
they gave percentages year by year as to how they approached 
2012 and, bongo, they're across the finish line. Then the 
reporters asked if the United States would also meet the 
deadline. Well, fortunately, the Ambassador mentioned that 
there are two locations in the United States that are probably 
not going to make it across the finish line and this comes 
about because destroying chemical weapons is very difficult. 
Disputes have occurred in those sites as to how it was to be 
done. Likewise some moneys have not been available on occasion.
    Ms. Tauscher. Right.
    Senator Lugar. I don't believe the Russians will finish by 
2012 and probably not by 2017, for that matter, but we may not 
either.
    Now, I mention this because we've talked a lot about 
credibility in the international community and that was the 
purpose of these questions.
    But I ask you to review the chemical weapons predicament, 
both from the Russian side as well as our side. Likewise, I 
urge you to study the Russian Government's calims about who 
actually paid for the construction of the facility at 
Shchuchye. I think the Russian claims are inaccurate, but once 
again this is going to require some thoughtfulness on our part 
and it's important we establish for the record and for the 
benefit of the international community what we have done 
because it's important to ensure that the record is accurate.
    So this is less of a question and simply a comment because 
I think you generally agree with the line of thinking----
    Ms. Tauscher. I do.
    Senator Lugar [continuing]. That I've expressed.
    Ms. Tauscher. I do, Senator. You know, we have a deadline 
of April 29, 2012. We have had some funding and construction 
problems at the two sites in Pueblo, CO, and Bluegrass, KY. We 
hope to be on track to be about 90 percent of the way by 2012.
    I agree with you on the funding issue. I was in the House 
and supported the funding for Shchuch, but I think the 
predictability in funding on a number of these things is the 
place where we need to show American leadership and certainly I 
believe that signing treaties is the ultimate commitment of the 
nation state and it is important to live up to the obligations 
of those treaties that we do sign and certainly we only do that 
when we have the advice and consent of the U.S. Senate.
    So there's a lot on the line when the United States steps 
up to the line and says we're going to do something and part of 
it is to not only get it signed and to agree but also then to 
do the funding and then to do the construction and to finally 
do the job that is meant to be done.
    So you have my promise, Senator, that we will do a thorough 
review of the obligations that we have, where are we falling 
short, how are we going to get a predictable sense of funding 
for those things, and then I think we're going to have to come 
back and ask you to help us because we're going to need the 
heavy lift of both the House and the Senate, both authorizers 
and appropriators, to make sure that we are on target to keep 
our promises where we have put the American people's name on 
the line in signing these treaties.
    Senator Lugar. I appreciate that information very much. One 
reason I'm enthusiastic about your nomination is that you have 
served in the House of Representatives. You know the nitty 
gritty of how this proceeds. It's one thing to sign the big 
treaties and to set dates and to have a lot of hurrahs, but 
it's another to work year in and year out through different 
chairmen, through different administrations to accomplish the 
treaty's goals. I am hopeful that your experience will prove 
useful in maintaining focus on the tasks at hand and that you 
can illustrate the challenges from your own experience in 
trying to counsel others.
    Ms. Tauscher. Yes, Senator.
    Senator Lugar. Thank you very much.
    Ms. Tauscher. Thank you, Senator. Thank you.
    Senator Kaufman [presiding]. Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    First, let me concur with my colleague from Maryland, 
Congressman Hoyer, and I'm so pleased that Congresswoman 
Tauscher has agreed to take on this new responsibility.
    I've had the honor of working with you in the House of 
Representatives and the President could not have selected a 
better choice. We're very proud of your continued public 
service, and I just really want to thank your family because 
this is a family commitment----
    Ms. Tauscher. Thank you.
    Senator Cardin [continuing]. And it's a lot of sacrifice 
and we just appreciate your willingness to go forward.
    I also want to concur in your observations of Senator 
Lugar. We're very proud of being able to serve with Senator 
Lugar on this committee and in the U.S. Senate.
    He told us about his experiences in Russia. It was not easy 
to get there. This was a great personal sacrifice, but it was 
important for the United States to have a person of Senator 
Lugar's reputation present at that opportunity to emphasize the 
importance of the progress being made. We're very proud of the 
role, Senator Lugar, that you have played here, and we look 
forward to the continued progress in making the world safer.
    I think you're going to have a great partner in 
Congresswoman Tauscher on this. I just really wanted to 
emphasize that.
    Ellen, let me just ask you one or two questions. One is 
that I agree with you that the new START Treaty is going to be 
very important. We have a deadline of December when it expires. 
There's great interest in the United States and in Russia to 
complete a new START Treaty, and I certainly support that.
    But let me just point out the obvious. When we look at the 
nuclear weapons threat internationally, including Iran, North 
Korea, and other problem areas of the world, we have not gotten 
the type of cooperation from Russia that we would like to have 
seen in developing the international strategy to contain Iran 
particularly. I just really want to put that on the table as we 
are talking with the Russians and making progress toward a new 
START Treaty, something again which is in the United States 
interests and for which we have a very clear deadline. It seems 
to me it may give us opportunities to improve our strategies in 
dealing with other problems around the world where the United 
States and Russia have a mutual interest, and I would just 
encourage you to use every opportunity you can to advance 
United States policy and make this world a little safer.
    Ms. Tauscher. Senator, I couldn't agree more, and, you 
know, I think back to our time as Members of the House with 
great fondness and I think the great State of Maryland is well 
served by having you here.
    I will tell you that I have, as I said to Senator Lugar 
earlier, I consider myself a fellow traveler, but I have never 
been anywhere in the world, either on nonproliferation issues 
or talking about nuclear, chemical, or biological weapons, when 
I don't walk in a room and someone doesn't ask me to give their 
regards to Senator Lugar. So I agree with you that he is the 
exemplar for public service and for historic opportunity for 
our relationship with Russia.
    Senator Lugar quickly identified at the fall of the Soviet 
Union the opportunity for us to have a take down of the Soviet 
Union in the most responsible way and that investing American 
time, energy, and money was the best way to protect ourselves 
and it was not easy, was it, Senator Lugar, to make those 
initial negotiations nor was it easy, frankly, after the cold 
war for average Americans and even politicians to believe that 
we should so quickly come to the aid of a former enemy, but 
thank goodness and thank God Senator Lugar persevered and we 
have the Cooperative Threat Reduction Programs and a number of 
other Nunn-Lugar programs that have worked.
    I agree with you, Senator Cardin, that any opportunity that 
we have to engage with someone that has the kind of influence 
that Russia has, and certainly China, a number of other 
countries that have very significant influence in a multipolar 
world, we need to take it and that is what President Obama has 
espoused and said he wants to do and that is certainly what 
Secretary Clinton has done with her flair and I think 
significant success.
    So you're absolutely right. It is important for us to 
engage on a multidiscipline, multilevels with the Russians and 
I intend, should I be confirmed, to be able to do that.
    Senator Cardin. Thank you. I do want to underscore the 
point that Senator Lugar made. It's one thing to enter into 
agreements, it's another thing to put up the resources to 
implement those agreements, and as time moves on the interest 
sometimes is not as great as when you started.
    So sometimes you lose sight of how much it costs to safely 
eliminate the threat. That came home in your visit to Russia, 
and I think it's a point that we need to continuously remind 
our colleagues, that this is an ongoing commitment. It's not 
going to be dealt with in 1 year, the destruction of chemical 
weapons particularly, but also other weapons and materials that 
we are seeking to have safely disposed of.
    So it will require someone with experience with how 
Congress operates. Senator Lugar, you're right about that, and 
the attention span of Congress is not as long as sometimes as 
we would like to see it. So it will challenge Congresswoman 
Tauscher's talents, but I know she's up for it.
    One more point, if I might, just to put on your agenda to 
take a look at.
    Ms. Tauscher. Yes.
    Senator Cardin. And that deals with the Foreign Relations 
Act and satellite technology.
    I mention that because there are restrictions under the 
Foreign Relations Authorization Act as to transfer or launch 
into outer space from China. The manner in which satellite 
technology is now being implemented has changed since 
authorizations and restrictions were first placed in law, and I 
would just ask that you review these programs to make sure that 
we're not disadvantaging American companies, in a way that is 
not inconsistent with our national security interests which 
obviously comes first. I would just ask that you put that on 
your agenda for review and see whether we shouldn't be looking 
at some modifications in those laws.
    Ms. Tauscher. I very much appreciate that, Senator Cardin. 
We are going to review our expert control policies.
    We have a vibrant and robust technology and innovation 
business in the United States that is second to none and it is 
vitally important, first and foremost, that we protect those 
items. Some of them are dual use items that are absolutely 
necessary for our national security and those are the things 
that we have to protect the heck out of and make sure that 
there is an unambiguous support for the protection of those 
items.
    At the same time, I believe that we have to understand that 
the life cycle of technology these days can be as short as 18 
months and can be as short as 2 years. You could actually have 
an item that is, you know, Release 1.0 and right following it 
in a few months is Release 2.0 and this item might have to be 
protected and that we absolutely have to protect but we have to 
understand what it is we have to protect.
    We cannot protect 25,000 items to the extent that we need 
to protect them, but we do have to absolutely, unambiguously 
protect the things that we must protect. So I think it is 
important for us to review and take a look at, certainly with 
full transparency with this committee and with the Congress, 
what exactly it is that we are meant to protect, what are the 
mechanisms we're going to use and the assurances we're going to 
have that we can protect those things, and what is the review 
process once something is no longer a necessity to protect to 
get it off the list so that we can put the thing on that needs 
to be protected.
    I think in the beginning we realized that we had to protect 
X number of things and then it became X plus and then X plus 
and then XX plus and you cannot protect everything for its life 
cycle. You can only protect it while it is important for 
national security.
    So it is a complicated set of circumstances. It is 
important to have the authority, but it's also important to 
have the confidence and trust of the Congress that we have a 
regime to do that here in the United States where we can 
protect absolutely and unambiguously the things that need to be 
protected and that we can move them off the list and bring on 
the things that need to be protected.
    So we're going to need your help on that.
    Senator Cardin. Well, I agree with that analysis. I think 
that's the right analysis and, of course, you currently 
represent a state that has produced some of the best companies 
for technology growth that has helped our national----
    Ms. Tauscher. Yes, Senator.
    Senator Cardin [continuing]. Security, and so do I 
represent a State----
    Ms. Tauscher. Yes, you do.
    Senator Cardin [continuing]. That falls into that category, 
and we've had some friendly competition over the years.
    But the important point is that you're exactly right. A lot 
of this technology growth is international in some respects and 
if companies are prohibited from being engaged internationally, 
their viability is affected and----
    Ms. Tauscher. That's right.
    Senator Cardin [continuing]. Their ability to create new 
technologies to make us safe is compromised if those companies 
relocate in other countries that don't have the same 
restrictions because they have modernized their national 
security assessment.
    So I think you're right on target on this and I look 
forward to working with you so that we can protect----
    Ms. Tauscher. Thank you.
    Senator Cardin [continuing]. Our national security but also 
be able to keep technology here in the United States. That's 
important for our national security.
    Ms. Tauscher. Yes, sir, and create jobs. I mean, the 
balance will always favor national security, but we also need 
to create good-paying American jobs and have America be at the 
forefront of technology and it's that sweet spot that we have 
to find to make sure that we are absolutely protecting the 
national security items but at the same time we're cognizant 
that there's a world market for things that can be taken off 
the list and that we have to then protect the new things that 
need to be protected.
    Senator Cardin. I agree. Thank you very much.
    Ms. Tauscher. Thank you, Senator.
    Senator Cardin. I appreciate again you being willing to 
take on this new responsibility.
    Ms. Tauscher. Thank you, Senator Cardin.
    Senator Kaufman. I want to thank in joining my colleagues 
in just saying how much I appreciate what you're doing in 
taking this on and the ability of your family to go along with 
this and make the sacrifices that are going to be required is 
really important----
    Ms. Tauscher. Thank you, Senator.
    Senator Kaufman [continuing]. And I must say I agree with 
the Leader. If we could clone you somehow and keep you in the 
House and also have you do this job, it would be a great step 
forward for the country.
    Ms. Tauscher. Thank you, Senator.
    Senator Kaufman. I'm daunted by the breadth of your 
responsibilities in this new position and I think that just 
sitting here listening to the arms control and nonproliferation 
section of your job is like a Tour De Force in what we have to 
do and how complex the problems and how interrelated they are 
and I think it's clear you have the support of really one of 
the key people in the Congress, in the country, in Senator 
Lugar who has turned this into an incredible journey that will 
be looked back on in terms of how a Member of Congress affected 
what was incredibly important to us.
    As Senator Cardin says, sometimes in the Congress we have 
kind of a short attention span. I think one of the great things 
about what Senator Lugar has done is he gets up every day and 
worries about this. He never, never moves off course. He's 
always thinking about how to do this and our kids and our 
grandchildren are going to thank God that he did all of this 
because where would we be without the things that he did and 
what Senator Nunn did earlier is just terrifying to think about 
it and where we have to get to.
    I'm daunted by doing this, but I think there's an area that 
you have that we haven't talked about and that is you head up 
the Bureau of Political and Military Affairs.
    Ms. Tauscher. Yes, sir.
    Senator Kaufman. And I think with the new kind of adoption 
of counterinsurgency, this particular Bureau is incredibly 
important----
    Ms. Tauscher. Yes.
    Senator Kaufman [continuing]. As we move forward, and I 
think that really having the Under Secretary on the beat, in 
addition to the other things you're carrying, is really, really 
important. So I'd like to spend just a few minutes talking 
about some questions about that involvement----
    Ms. Tauscher. Yes, Senator.
    Senator Kaufman [continuing]. Because how State 
interrelates with DOD--what's really incredible to me is how 
much when you talk to the leaders in the Department of Defense 
and the military--I had a chance to travel overseas the last 
couple months to most of the trouble spots and it's amazing how 
the Department of Defense has just gathered this whole idea of 
building after we clear and hold and then we build and how 
important the civilians are in that.
    So that being said, here we are in Iraq and we're getting 
ready to leave. I mean, how do you see your job in kind of 
coordinating and carrying the counterinsurgency message forward 
as we leave from Iraq?
    Ms. Tauscher. Well, Senator Kaufman, if I could just 
briefly, before I answer your very interesting question, if I 
could just say that on June 27, I am going to marry a retired 
marine, Jim Cieslak, and my 18-year-old daughter goes away to 
college on August 13 to play Division 1 volleyball at Bucknell 
University.
    Senator Kaufman. Congratulations.
    Ms. Tauscher. And my friends behind me in the House, you 
know, it is a very--it is a daunting challenge to pick up this 
job, but I'll tell you that I feel so supported and I feel 
very, very blessed to not only have my family support but my 
friends in the House who are, you know, either pushing me out 
the door or are trying to hold me back and to know that I can 
work with Senator Lugar, Senator Kerry and all of you, it is 
and certainly have Secretary Clinton and the President.
    I think this is an extraordinary time to do what is going 
to take extraordinary work and you have my pledge as someone 
coming from the legislative branch going to the executive 
branch, I'm not confused as to what it's going to take to get 
this done, and it's going to take the political will of the 
American people and you are the political will of the American 
people and that means that you need to be constantly briefed 
and have as much transparency and confidence that you can have 
and that is my pledge to you.
    On the whole issue of political-military, and Iraq, I think 
what's really important to understand is that in my 13 years as 
a member of the House Armed Services Committee, my 
relationships are actually very strong in the Pentagon. I'm 
very happy to see that Assistant Secretary Nominee Andrew 
Shapiro was--had his hearing the other day. I hope he will be 
confirmed soon.
    We have a number of very pressing issues in political-
military. We have very strong POLAD Program where we are 
putting obviously senior military officers paired with our best 
Foreign Service people. We intend to expand that as best we 
can.
    As Secretary Gates has said, who has been a fabulous 
advocate for the State Department, there are more people in the 
Army Band than there are diplomats.
    Senator Kaufman. Right.
    Ms. Tauscher. And I think that what we're trying to find 
now and perhaps smart diplomacy is an overused term, but I 
think it's an accurate one, what we know after the last 10 
years, after the horrific attack on September 11, after 
Afghanistan and now Iraq and as we move out of Iraq and as we 
reposition to defeat counterinsurgency in Afghanistan, what we 
know better than ever is that we have the finest military force 
in the world and these are volunteers, unbelievable young men 
and women from around the country, and they should be the lever 
of power that we use the least and last and that says that the 
rest of us have to stand up first and that means that the 
civilian core and that means everyone in the Federal 
Government, whether it's the Department of Labor, whether it's 
the Department of Agriculture who is trying to figure out how 
to talk the Afghans out of poppy into wheat, it's just about 
having more civilians on task and doing the mission.
    And I know that Secretary Clinton has talked about this and 
so has President Obama and what's important, I think, Senator, 
is that over the next few months, as I hope to be confirmed and 
transition into the job, that I can spend time with all of you 
and get the wisdom of how you think things should be.
    I expect that the Secretary will want me to do what she's 
done so well which is a listening tour, and what I would like 
to do is really understand what your sense for where we are at 
this moment and where we need to go in the short, medium and 
long term would be.
    In Iraq, we have a number of challenges obviously. We have 
a significant amount of funding that we still have to provide 
to stabilize the country. We have foreign military sales. We 
have foreign assistance that we have to do. All of this is done 
inside the Under Secretary of Arms Control and International 
Security's purviews.
    So I will work with you and others and the interagency and 
I will expose any ideas and plans that I have with you and for 
you, but what is clear is that we have to leave Iraq better 
than it was and we have to leave it in a way that is stabilized 
not only for itself but for the region and that is what the 
president has said, that is what General Petraeus has said, and 
I think that we have an opportunity to do that.
    You know, it's a very short time from now when we will be 
leaving the cities of Iraq and it's important that we do it in 
a way that is fundamentally going to protect not only the 
American people but the Iraqi people and the region and so it's 
going to take a lot of work together for us to be in that place 
and I look forward to the opportunity to do that.
    Senator Kaufman. And now Afghanistan. I mean, Afghanistan, 
we have a major--I use the term ``surge,'' but really a surge 
of civilian employees in there and again once more to implement 
the counterinsurgency, the military is very much with us.
    Ms. Tauscher. Right.
    Senator Kaufman. Do you have any thoughts about how we get 
this done?
    Ms. Tauscher. I do. I do, Senator. I think what's 
important, and I think that General McCrystal and others, he 
certainly embodies the opportunity, I think that what we have 
seen is that we are in a world where we cannot put down the 
past because the past has not gone away. Things have just 
gotten more complicated.
    Senator Lugar knows this better than anyone. We have not 
moved away from conventional warfare. We know that it still is 
going to exist. But we have moved into this world, morphed into 
this world of counterinsurgency and that in and of itself is 
destabilizing because you have to be able to have your forces 
prepared for missions that are at sometimes contradictory and 
so I think the choice of General McCrystal is a good one in 
Afghanistan and the region.
    The region needs to be prepared to deal with a long-term 
counterinsurgency and that we need to be able to provide them 
with not only military training, funding, armaments, and the 
kind of cooperation that we're going to have to have with each 
other to make sure that we can defeat the counterinsurgency 
that is in Afghanistan that is causing such trouble to the 
region and we are going to have to do that with cooperation of 
a number of our allies who are helping us.
    It is difficult to make the case right now. As you know, we 
have a very large NATO mission there. I have been frustrated as 
a House Member that a number of our allies have caveats on 
their troops. They didn't really step up at a time when I 
thought that they should have, but at the same time I think we 
have to be clear as to what the mission is and I think that now 
that we have articulated what our planned exit strategy is and 
what the circumstances on the ground need to be in order for us 
to leave, I think that we're going to continue to get 
cooperation by our NATO allies and others, but at the same time 
this is still a hard slog and it's going to take all of our 
efforts to make sure that we're taking the temperature, that 
we're serious and deliberative about the moves that we make 
going forward.
    I think that President Obama has shown that he is very much 
interested in the advice and consent of General Petraeus and 
others in making sure that we're doing this the right way and I 
think the patience of the American people are going to be 
needed and I think that our collaboration is going to be 
important, too.
    Senator Kaufman. You know, it's kind of like 
counterinsurgency. I feel like, you know, you wait for 6 months 
to buy a car and then you want it the next day. I think we now 
have a consensus in the military about counterinsurgency.
    I just say that we've got to spend as much time training 
the folks from the State Department, from the Department of 
Agriculture, from the FBI, that we send over. We have to start 
doing that now and I think you're in an ideal position to kind 
of lead this charge in terms of recruiting people just to do 
this.
    I mean, you can't secund somebody from the Department of 
Agriculture and put them in Afghanistan. They didn't sign up 
for that. That's essentially what we're doing now. So I'm 
looking for the State Department to look down the road in terms 
of we've got a counterinsurgency training ground. We're going 
to have to have the counterinsurgency--civilian side of 
counterinsurgency as well as recruited, as well educated, as 
well trained as the military people they're going to have to 
serve with over there.
    So, you know, in addition to all your other 
responsibilities, I feel a little guilty kind of laying this on 
you, but I just think that everybody's--I've never seen such 
unanimity in the military that this is what we have to do, but 
it's going to take--like you say, there's more people in the 
band than there is in the State Department.
    If we're going to do this job right, we're going to need 
all kinds of civilians over there working with the military 
and, as you say, this counterinsurgency is going to go on for 
awhile.
    Ms. Tauscher. Yes, sir. I think you're absolutely right. I 
think the template for the future is to have--you know, only 
use our military when absolutely necessary and have a plan to 
get them out as soon and as safely as we can, but also then 
have the civilian surge that is going to be excellent Foreign 
Service officers, people from the Civilian Affairs side, people 
from the Department of Agriculture, Military Police, people 
that can figure out how to stand up the civilian side of what 
is, you know, now a safer place to live, so that civilians and 
children go back to school, civilians can go back to work, but 
it's going to take a concerted effort, and I think to a certain 
extent a rapid response force of the civilian side, the 
civilian surge is going to have to be constructed, and I think 
you've got some ideas on this, Senator. So I'll be back to you 
to see what exactly it is that you think we should be doing.
    Senator Kaufman. OK. Thank you very much.
    Ms. Tauscher. Thank you, sir.
    Senator Kaufman. Senator Lugar, do you have any more 
questions? Senator Cardin?
    Well, then we'll adjourn this meeting. I'd like to leave 
the record open until noon tomorrow, Wednesday, June 10, if my 
colleagues would like to submit questions for the record.
    Thank you very much.
    Ms. Tauscher. Thank you very much.
    [Whereupon, at 11:24 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Prepared Statement of Hon. Barbara Boxer, 
                      U.S. Senator from California

    Mr. Chairman, Senator Lugar, I am proud to express my strong 
support for Representative Ellen Tauscher, President Obama's nominee to 
be Under Secretary of State for Arms Control and International 
Security.
    As a fellow Californian and friend, I can say with confidence that 
President Obama couldn't have picked a more qualified individual for 
the job.
    Representative Tauscher was elected to the House of Representatives 
in 1996, where she has tirelessly served California's 10th 
Congressional District, located in the East Bay area of northern 
California.
    During her second term in Congress, she joined the prestigious 
House Armed Services Committee. As a member of this committee, and 
ultimately chairman of the Subcommittee on Strategic Forces, she 
championed many of the issues she will be responsible for if confirmed.
    In particular, Representative Tauscher has been a constant advocate 
to stop the spread of nuclear, chemical, and biological weapons across 
the globe. She has sponsored legislation to accelerate the cleanup of 
fissile and radioactive materials at vulnerable sites worldwide and to 
make our country less vulnerable to the threat of nuclear terrorism.
    And as the Chair of the NATO Parliamentary Assembly's Subcommittee 
on Future Security and Defense Capabilities, Representative Tauscher 
understands how important it is to address U.S. security interests from 
an international perspective.
    If confirmed, Representative Tauscher will advise the President and 
the Secretary of State on all matters pertaining to arms control, 
nonproliferation, and international security issues.
    Unfortunately, there is no doubt that we will continue to face 
significant challenges on a number of these fronts. Iran continues to 
enrich uranium in defiance of the Nuclear Non-Proliferation Treaty 
(NPT) and multiple United Nations Security Council Resolutions. North 
Korea recently conducted a second nuclear test and has terminated its 
participation in the six-party talks, heightening tension in Asia and 
around the globe.
    The threat of biological and chemical weapons falling into the 
hands of terrorists, and the sale of nuclear materials and technologies 
on the black market also remains of grave concern.
    There are also vitally important treaties that need strong U.S. 
leadership. A new treaty is needed to replace the Strategic Arms 
Reduction Treaty (START), which is set to expire in December 2009. And, 
the United States has yet to ratify the Comprehensive Test Ban Treaty 
(CTBT), which President Obama has said that his administration will 
``immediately and aggressively'' pursue.
    I know that Representative Tauscher will bring to this position the 
passion and dedication that has defined her career.
    In closing, I am very pleased to support Representative Tauscher's 
nomination for this important post, and I hope that she will get a 
favorable vote from our committee.

                                  <all>

</pre></body></html>
